  Performance Audit of the NDIIPP Cooperative
Agreement with the University of California – Santa
                    Barbara
           Performance Audit Report

                 December 8, 2010




                         Point of Contact:
                      David Zavada, Partner
                    1701 Duke Street, Suite 500
                      Alexandria, VA 22314
                 703-931-5600, 703-931-3655 (fax)
                     dzavada@kearneyco.com


              FOR PUBLIC RELEASE
                UNITED STATES GOVERNMENT
                Memorandum                                          Office of the Inspector General



TO:            Laura E. Campbell                                                     February 22, 2011 
               Associate Librarian for Strategic Initiatives 

FROM:          Karl W. Schornagel    
               Inspector General 

SUBJECT:       Audit of the NDIIPP Cooperative Agreement  
               with the University of California – Santa Barbara 

We contracted with the independent certified public accounting firm of Kearney & Company 
(Kearney) to conduct an audit of the Library’s National Digital Information Infrastructure and 
Preservation Program (NDIIPP) Cooperative Agreement with the University of California – Santa 
Barbara (UCSB).  The objective of the audit was to determine compliance with relevant Federal and 
University guidance and the terms of the Cooperative Agreement.  Specifically, Kearney evaluated 
the design and operating effectiveness of internal controls, assessed expenditures for grant 
compliance, and assessed the accuracy and validity of reporting to the Library.  The contract 
required that the audit be performed in accordance with generally accepted government auditing 
standards (GAGAS). 
 
The scope of the audit included obtaining an understanding of the policies, requirements, and 
processes of selected risk areas (salaries and wages, contracts, other direct costs, and indirect costs) 
to identify key internal controls.  During the audit Kearney applied internal control compliance 
and substantive testing procedures to the selected risk areas for expenses reported to the Library 
through December 31, 2009.  The attached report presents the results of their audit for the period 
ended December 31, 2009.   
 
In its audit of UCSB, Kearney found that internal controls were designed effectively, grant 
expenditures were in compliance with grant terms and conditions, and quarterly and annual 
reporting was accurate, valid, and in accordance with the Cooperative Agreement, except for the 
following items, which did not affect the opinion as a whole: 
 
      $306,920 of contract expenses were incorrectly classified as other direct costs during the 
         period September 1, 2006 through June 30, 2007; 
      financial status forms 269a and 272 were not submitted timely; and 
      the university had a lack of documented policies and procedures for grant monitoring. 
 
 
 
 
 
 
 
In connection with the contract, we reviewed Kearney’s report and related documentation and 
inquired of its representatives.  Our review, as differentiated from an audit in accordance with 
GAGAS, was not intended to enable us to express, and we do not express, an opinion on UCSB’s 
compliance with grant terms, the accuracy and validity of its quarterly and annual reporting in 
accordance with the Cooperative Agreement, conclusions about the effectiveness of internal 
controls, or conclusions on compliance with laws and regulations.  Kearney is responsible for the 
attached auditor’s report dated December 8, 2010, and the conclusions expressed in the report.  
However, our review disclosed no instances where Kearney did not comply in all material respects 
with U.S. generally accepted government auditing standards.   
 
cc: Chief, Support Operations 
       Supervisory Grants Management Officer 
       Director, NDIIPP Program Management 
       Chief Financial Officer
                                  Performance Audit of the NDIIPP Cooperative Agreement
                                  With the University of California – Santa Barbara
                                  Performance Audit Report


                       TABLE OF CONTENTS
                                                                                  Page #

EXECUTIVE SUMMARY                                                                     1

BACKGROUND                                                                            1

OBJECTIVES                                                                            2

SCOPE                                                                                 2

METHODOLOGY                                                                           3

AUDIT RESULTS                                                                         4

APPENDIX A – FINDINGS, RECOMMENDATIONS, AND                                           6
     MANAGEMENT RESPONSES




                                                                       December 8, 2010
                                                      Performance Audit of the NDIIPP Cooperative Agreement
                                                      With the University of California – Santa Barbara
                                                      Performance Audit Report


EXECUTIVE SUMMARY

Kearney & Company, P.C. (Kearney) was retained by the Library of Congress (the Library) to
conduct a performance audit of the Library’s Cooperative Agreement with the University of
California – Santa Barbara (UCSB) (Contract #GA06C0040). Kearney executed the
performance audit in accordance with generally accepted government auditing standards
(GAGAS) for performance audits, as prescribed in the most current version of Government
Auditing Standards (Yellow Book) issued by the Comptroller General of the United States.

BACKGROUND

The Library, an agency in the Legislative Branch of the Federal Government, is the world’s
largest and most comprehensive library, maintaining a collection of more than 142 million
items—many of them unique and irreplaceable—in more than 470 languages. The Library’s
mission is to make its resources available and useful to Congress and the American people, and
sustain and preserve a universal collection of knowledge and creativity for future generations.

In 2000, the Library embarked on a mission to preserve digital cultural assets and make its
collections more publically available through the internet. During the same year, the Library
established the Office of Strategic Initiatives (OSI) to oversee this transition. Specifically, OSI is
tasked with:

   •   Consolidating the Library’s future digital goals
   •   Integrating the delivery of information technology (IT)
   •   Overseeing a national approach to digital preservation under the National Digital
       Information Infrastructure and Preservation Program (NDIIPP).

Through NDIIPP, the Library has undertaken an effort to preserve historically significant content
and capture digital content that is at risk of disappearing.

To accomplish this undertaking, the Library established a network with other Federal, research,
non-profit, philanthropic, library, and business organizations to select, collect, and organize
historically significant materials and information resources to provide for the long-term storage,
preservation, and authenticity of collected materials, and provide public access to the digital
heritage of the American people.




                                                                                           December 8, 2010
                                                  1
                                                     Performance Audit of the NDIIPP Cooperative Agreement
                                                     With the University of California – Santa Barbara
                                                     Performance Audit Report


OBJECTIVES

Kearney was engaged to audit selected NDIIPP Cooperative Agreement recipients to determine
if financial reporting and data quality applications were in compliance with relevant Federal and
University guidance, and the Cooperative Agreement. The primary objectives of the audit were
to:

   •   Evaluate the design and operating effectiveness of internal controls for processes
       designated as risk areas
   •   Assess expenditures for compliance with grant terms and conditions for processes
       designated as risk areas
   •   Assess the accuracy and validity of quarterly and annual reporting in accordance with the
       Cooperative Agreement.

SCOPE

As part of its NDIIPP effort, the Library entered into a Cooperative Agreement on September 30,
2004 with UCSB in the amount of $3,546,796. The Agreement’s period of performance was
amended to end on December 31, 2009. The objective of the Agreement was to collect digital
materials across the spectrum of cartographic history from colonial maps to satellite imagery.

Kearney’s audit included obtaining an understanding of the policies, requirements, and processes
of selected risk areas in order to identify key internal controls. The scope of the review included
expenses reported to the Library through December 31, 2009. Additionally, Kearney applied
select internal control, compliance, and substantive testing procedures for the following risk
areas:

   •   Salaries and wages
   •   Contracts
   •   Other direct costs
   •   Indirect costs.

Risk areas were defined as total expense categories as identified in the chart below:

                                   Table 1 – Analysis of Costs

                            Cumulative Actual
                                                      Percentage of Total Cost
    Cost Category           Expenses (Library                                                Risk Area
                                                        Paid by the Library
                               Portion)**
Salaries and Wages                     $554,822                               18.55%             Yes
Fringe Benefits                        $179,854                                6.02%             No
Travel                                 $125,847                                4.21%             No
Materials and Supplies                     $689                                0.02%             No
Contracts                            $1,519,954                               50.83%             Yes
Other Direct Costs                     $306,920                               10.26%             Yes


                                                                                          December 8, 2010
                                                 2
                                                    Performance Audit of the NDIIPP Cooperative Agreement
                                                    With the University of California – Santa Barbara
                                                    Performance Audit Report


Indirect Costs                          $302,398                             10.11%             Yes

**Amounts are the actual expenses reported to the Library through Year 5, September 30, 2009.

The source of Kearney’s testing populations was the expense ledger provided by UCSB. The
Financial Status Reports (FSR) and the Budget to Actual Spreadsheets were provided by OSI.
Evidence was primarily provided by UCSB in soft and hard copy formats. Kearney conducted
this performance audit from March 2010 through December 2010, including a site visit to UCSB
during the week of May 31, 2010.

Kearney identified the financial systems used during the receipt and execution of the Library
grant. During walkthroughs of the systems, Kearney noted no instances of noncompliance of
UCSB’s financial management system with the requirements set forth in Office of Management
and Budget (OMB) Circular A-110. No additional IT controls were tested as a part of this audit.

Kearney did not review the Automated Standard Application for Payments (ASAP) system
information or cost sharing information with the intent of testing controls. For ASAP, Kearney
substantively reviewed the drawdowns to ensure they matched the amounts authorized by the
Library. Kearney relied on the Department of the Treasury (Treasury), Financial Management
Service’s (FMS) controls to ensure only authorized individuals had access to draw on grant
funds. Cost sharing was reviewed for informational purposes, as Kearney only tested the cost
sharing information to ensure the matching ratio was consistent with the Cooperative Agreement.

METHODOLOGY

Kearney conducted this performance audit in accordance with GAGAS for performance audits,
as prescribed in the most current version of the Yellow Book issued by the Comptroller General
of the United States. Those standards require that Kearney plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and conclusions
based on the audit objectives. Kearney believes that the evidence obtained provides a reasonable
basis for the findings and conclusions based on the audit objectives. As a basis for Kearney’s
performance audit, the audit team used the Cooperative Agreement; OMB Circular A-21, Cost
Principles for Educational Institutions; OMB Circular A-110, Uniform Administrative
Requirements for Grants and Other Agreements with Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations; and OMB Circular A-133, Audits of States,
Local Governments, and Non-Profit Organizations to determine whether UCSB was in
compliance with the Cooperative Agreement.

To meet the performance audit objectives, the audit team specifically:

   •   Obtained an understanding of UCSB’s financial reporting, information systems, salary
       and wage expenses, contracts, other direct costs, and indirect costs processes related to
       the grant by obtaining and reviewing applicable laws, regulations, and contract
       documents; conducting interviews and discussions with key personnel; and reviewing
       transactional-level documentation. Further, Kearney confirmed its understanding of the
       processes and documented key controls for the selected processes through the completion

                                                                                         December 8, 2010
                                                3
                                                     Performance Audit of the NDIIPP Cooperative Agreement
                                                     With the University of California – Santa Barbara
                                                     Performance Audit Report


       of walkthroughs. These procedures are the basis for evaluating the design and operating
       effectiveness of internal controls for processes designated as risk areas
   •   Tested expenditures for compliance with grant terms and conditions for processes
       designated as risk areas. Testing included the validation of expense populations,
       selection of samples, and review of supporting documentation for each sample to ensure
       validity and compliance with contract requirements and select key controls
   •   Assessed the accuracy and validity of quarterly and annual reporting in accordance with
       the Cooperative Agreement through a reconciliation of the grantee expense detail to the
       amounts reported on the FSRs, review of the submission dates for all FSRs, recalculation
       of cost sharing totals, and review of UCSB draws made via ASAP
   •   Verified that UCSB’s financial management systems supported the following items,
       which are required by OMB Circular A-110:

       -   Records that identify adequately the source and application of funds for federally-
           sponsored activities. These records must contain information pertaining to Federal
           awards, authorizations, obligations, unobligated balances, assets, outlays, income, and
           interest
       -   Adequate safeguards of all assets and assurance that they are used solely for
           authorized purposes
       -   Comparison of outlays with budget amounts for each award. Whenever appropriate,
           financial information should be related to performance and unit cost data
       -   Written procedures for determining the reasonableness, ability for allocation, and
           allowability of costs in accordance with the provisions of the applicable Federal cost
           principles and the terms and conditions of the award
       -   Accounting records, including cost accounting records that are supported by source
           documentation.

AUDIT RESULTS

When conducting the performance audit, Kearney gathered sufficient evidential matter to support
its findings and conclusions. All findings were documented in formal Notifications of Finding
and Recommendation (NFR), to include the condition, criteria, cause, effect, and
recommendation for each, and were submitted to UCSB management for review and comments.
The condition, recommendation, management response, and auditor response (if applicable) is
provided for each finding in Appendix A of this report. Kearney summarized the findings
identified while conducting the audit; the following is a listing of findings discovered as a result
of testing:

   1. Incorrect Classification of Expenses as Other Direct Costs
   2. Forms 269a and 272 were Not Submitted Timely
   3. Lack of Policies and Procedures.

Kearney concludes that internal controls are designed effectively for the processes designated as
risk areas, grant expenditures are in compliance with grant terms and conditions for processes
designated as risk areas, and quarterly and annual reporting is accurate and valid, and in


                                                                                          December 8, 2010
                                                 4
                                                   Performance Audit of the NDIIPP Cooperative Agreement
                                                   With the University of California – Santa Barbara
                                                   Performance Audit Report


accordance with the Cooperative Agreement, except for the instances listed above and further
described in Appendix A.

                                *       *      *      *         *

This report is intended solely for the information and use of Library management, those charged
with governance and others within the Library, the Inspector General of the Library, OMB, the
Government Accountability Office, and Congress, and is not intended to be and should not be
used by anyone other than these specified parties.




December 8, 2010




                                                                                        December 8, 2010
                                               5
                                                     Performance Audit of the NDIIPP Cooperative Agreement
                                                     With the University of California – Santa Barbara
                                                     Performance Audit Report


APPENDIX A – FINDINGS, RECOMMENDATIONS, AND MANAGEMENT
RESPONSES

1.       Incorrect Classification of Expenses as Other Direct Costs

During testing, Kearney & Company, P.C. (Kearney) noted $306,920 of “contracts” expenses
were incorrectly categorized as “other direct” costs on the Budget to Actual Spreadsheet for the
time period of September 1, 2006 through June 30, 2007.

Recommendation:

Kearney notes that as of September 30, 2009, the Library of Congress (the Library) no longer
requires the Budget to Actual Spreadsheet to be submitted by National Digital Information
Infrastructure and Preservation Program (NDIIPP) grantees; therefore, no specific
recommendations are necessary. In general, Kearney suggests that the University of California –
Santa Barbara (UCSB) review its controls over reporting to ensure submissions are in
accordance with Government requirements, and sufficient controls are designed and operating
effectively over reporting processes.

Management Response:

UCSB management concurs with the finding and recommendation.

2.       Forms 269a and 272 were Not Submitted Timely

The Cooperative Agreement between the Library of Congress (the Library) and the University of
California – Santa Barbara (UCSB) requires that Financial Status Reports (FSR) be submitted no
more than 45 days after the end of each quarter during the period of performance. Kearney &
Company, P.C. (Kearney) reviewed FSR Forms 269a and 272 submissions and noted the
following:

     •   24 of 40 required submissions tested were submitted after the required due dates;
         Kearney noted the forms were completed six to 211 days after the required deadline
     •   One of 40 required submissions tested was not dated; therefore, submission timeliness
         could not be determined.

The table below provides information on the number of days over the deadline for each FSR that
was not submitted timely.

                                  Form 269a              Form 272
            Year 1
             Qtr 3                37 days                38 days
             Qtr 4                84 days                85 days

            Year 2
             Qtr 4                31 days                32 days

                                                                                          December 8, 2010
                                                 6
                                                     Performance Audit of the NDIIPP Cooperative Agreement
                                                     With the University of California – Santa Barbara
                                                     Performance Audit Report




           Year 3
            Qtr 1                 203 days               211 days
            Qtr 2                 113 days               121 days
            Qtr 3                 22 days                30 days
            Qtr 4                 120 days               120 days

           Year 4
            Qtr 1                 159 days               159 days
            Qtr 2                 68 days                68 days
            Qtr 4                 139 days               139 days

           Year 5
            Qtr 1                 47 days                46 days
            Qtr 2                 6 days                 On Time
            Qtr 4                 66 days                No Date

Recommendation:

Kearney recommends that UCSB management ensure that FSRs are submitted within the amount
of days specified in the Cooperative Agreement.

Management Response:

UCSB management concurs with the finding and recommendation.

The Annual Financial Reports serve as the fourth quarter reports which are due 120 days after
each fourth quarter per section B.3.4 of the Cooperative Agreement not 45 days as stipulated in
the Criteria. The detail cost share data is typically not required by other federal agencies which
required additional time for the proper department to prepare and complete the reports. The
institution is enhancing business practices to ensure timeliness due to this requirement.

3.      Lack of Procedures

When conducting the audit, Kearney & Company, P.C. (Kearney) was unable to determine the
procedures and processes in place prior to May 2009 due to a lack of documented procedures.

Recommendation:

Kearney recommends that the University of California – Santa Barbara (UCSB) document
standardized procedures for grant monitoring rather than leaving procedures for grants at the
discretion of the Institute for Computational Earth System Science (ICESS). This would provide
conformity across UCSB and reduce issues if grant responsibilities transfer within UCSB.




                                                                                          December 8, 2010
                                                 7
                                                    Performance Audit of the NDIIPP Cooperative Agreement
                                                    With the University of California – Santa Barbara
                                                    Performance Audit Report


Management Response:

UCSB management concurs with the finding and recommendation.

University of California (UC) has extensive policies regarding management of contracts and
grants (e.g. http://www.ucop.edu/raohome/cgmanual/). Each department within UCSB is
required to establish procedures that follow these and other UC policies. While standardization
of processes and procedures within some institutions may be possible, UCSB has departments of
varying size and structure, requiring that procedures for each department be modified to fit the
particular structure of that department, while also remaining in policy. The project was
administered within UC policy and managed by UCSB Library as a department. The procedures
and processes for grant monitoring were in place within the UCSB Library, but due to a 100%
turnover of the [UCSB] Library staff managing the grant, we were not able to locate written
copies of these procedures. Information relating to the ICESS procedures was provided to the
auditors during the UCSB visit.




                                                                                         December 8, 2010
                                               8
